<html>
<title> - EXAMINING THE POLICIES AND PRIORITIES OF THE U.S. DEPARTMENT OF AGRICULTURE'S FOOD AND NUTRITION SERVICE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                       EXAMINING THE POLICIES AND
                         PRIORITIES OF THE U.S.
                      DEPARTMENT OF AGRICULTURE'S
                       FOOD AND NUTRITION SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND HUMAN SERVICES


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, JUNE 4, 2019

                               __________

                           Serial No. 116-26

                               __________

      Printed for the use of the Committee on Education and Labor

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-908 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------              
            
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON CIVIL RIGHTS AND HUMAN SERVICES

                  SUZANNE BONAMICI, OREGON, Chairwoman

Raul M. Grijalva, Arizona            James Comer, Kentucky,
Marcia L. Fudge, Ohio                  Ranking Member
Kim Schrier, Washington              Glenn ``GT'' Thompson, 
Jahana Hayes, Connecticut                Pennsylvania
David Trone, Maryland                Elise M. Stefanik, New York
Susie Lee, Nevada                    Dusty Johnson, South Dakota
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 4, 2019.....................................     1

Statement of Members:
    Bonamici, Hon. Suzanne, Chairwoman, Subcommittee on Civil 
      Rights and Human Services..................................     1
        Prepared statement of....................................     3
    Comer, Hon. James, Ranking Member, Subcommittee on Civil 
      Rights and Human Services..................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Lipps, Mr. Brandon, Administrator, Food and Nutrition Service 
      and Acting Deputy Under Secretary, Food, Nutrition and 
      Consumer Services, U.S. Department of Agriculture..........     6
        Prepared statement of....................................     9

Additional Submissions:
    Chairwoman Bonamici:
        Link: School Nutrition and Meal Costs Study Summary of 
          Findings...............................................    45
        Foxx, Hon. Virginia, a Representative in Congress from 
          the State of North Carolina:...........................    46
        Article: Enjoying the God-Given Gift of Work.............    46
        Report: School Meals Programs............................    50
    Questions submitted for the record by:
        Mrs. Foxx................................................    78
        Sablan, Hon. Gregorio Kilili Camacho, a Representative in 
          Congress from the Northern Mariana Islands.............    79
        Hayes, Hon. Jahana, a Representative in Congress from the 
          State of Connecticut...................................    80
        Trone, Hon. David J., a Representative in Congress from 
          the State of Maryland..................................    80
    Mr. Lipp's response to questions submitted for the record....    81

 
                 EXAMINING THE POLICIES AND PRIORITIES
                       OF THE U.S. DEPARTMENT OF
                         AGRICULTURE'S FOOD AND
                           NUTRITION SERVICE

                              ----------                              


                         Tuesday, June 4, 2019

                        House of Representatives

                   Committee on Education and Labor,

            Subcommittee on Civil Rights and Human Services

                            Washington, DC.

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 2175, Rayburn House Office Building. Hon. Suzanne Bonamici 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Bonamici, Schrier, Hayes, Trone, 
Lee, Comer, Thompson, Stefanik, and Johnson.
    Also present: Representatives Scott, Sablan, Wild, Grothman 
and Foxx.
    Staff present: Tylease Alli, Chief Clerk; Nekea Brown, 
Deputy Clerk; Emma Eatman, Press Aide; Christian Haines, 
General Counsel Education; Alison Hard, Professional Staff; 
Carrie Hughes, Director of Health and Human Services; Stephanie 
Lalle, Deputy Communications Director; Andre Lindsay, Staff 
Assistant; Max Moore, Office Aide; Veronique Pluviose, Staff 
Director; Banyon Vassar, Deputy Director of Information 
Technology; Joshua Weisz, Communications Director; Rachel West, 
Senior Economic Policy Advisor; Cathy Yu, Director of Labor 
Oversight; Courtney Butcher, Minority Director of Coalitions 
and Member Services; Amy Raaf Jones, Minority Director of 
Education and Human Resources Policy; Hannah Matesic, Minority 
Director of Operations; Kelley McNabb, Minority Communications 
Director; Jake Middlebrooks, Minority Professional Staff 
Member; Mandy Schaumburg, Minority Chief Counsel and Deputy 
Director of Education Policy; Meredith Schellin, Minority 
Deputy Press Secretary and Digital Advisor; and Heather Wadyka, 
Minority Staff Assistant.
    Chairwoman BONAMICI. The Subcommittee on Civil Rights and 
Human Services will come to order. Welcome, everyone. I note 
that a quorum is present.
    Before we begin, I want to note that several of us have 
shadows today with a foster youth program. I have with me today 
Phoenix Ramirez from Southern Oregon University and Ashland, 
Oregon. And I want to ask the members who do have foster youth 
shadowing them today to please introduce your foster youth, and 
we won't take it out of your time.
    I ask unanimous consent that Representative Wild of 
Pennsylvania and Representative Sablan of the Commonwealth of 
the Northern Mariana Islands and Mr. Grothman of Wisconsin be 
permitted to participate in today's hearing with the 
understanding that their questions will come only after all 
members of the Subcommittee on Civil Rights and Human Services 
on both sides of the aisle who are present have had an 
opportunity to question the witness.
    Without objection, so ordered.
    The subcommittee is meeting today in a budget and oversight 
hearing to hear testimony on examining the policies and 
priorities of the U.S. Department of Agriculture's Food and 
Nutrition Service.
    Pursuant to committee rule 7c, opening statements are 
limited to the chair and ranking member. This allows us to hear 
from our witnesses sooner and provides all members with 
adequate time to ask questions. I recognize myself now for the 
purpose of making an opening statement.
    Mr. Lipps, thank you for appearing before the committee 
today on behalf of the U.S. Department of Agriculture's Food 
and Nutrition Service, or FNS. Welcome back to the Capitol.
    Before I begin I want to recognize and thank the Department 
for working with staff during the government shutdown earlier 
this year. Members were justifiably concerned with the effects 
of the shutdown on families across the country and we 
appreciate your efforts to minimize the disruption.
    According to its mission statement, the main objective of 
FNS is to end hunger and obesity and strengthen access to 
healthy food through nutrition assistance programs. Today's 
hearing is an opportunity to assess the commitment of FNS to 
that mission.
    Congress has long recognized the Federal Government's 
important role in addressing food insecurity, which affects 
roughly 15 million U.S. households, including a staggering 1 in 
5 children in my home State of Oregon.
    Over the course of more than 70 years, Federal child 
nutrition programs have proven to be an effective approach to 
providing children with the healthy food they need to succeed. 
Research shows that expanding access to nutritious food through 
child nutrition programs not only improves children's 
educational growth and outcomes, but also improves their health 
through adulthood. Because of these benefits, Congress has 
historically supported and strengthened child nutrition 
programs on a bipartisan basis. In fact, today child nutrition 
programs operated by FNS serve more than 30 million children 
throughout the year in nearly every corner of the country. In 
Oregon, nearly 300,000 students participated in the National 
School Lunch Program, and nearly 150,000 students participated 
in the school breakfast program last year.
    We should all be uniting in support of these valuable 
evidence-based programs, yet under this administration FNS has 
repeatedly rolled back nutrition standards, which are an 
important part of addressing childhood obesity and diabetes, 
and undermined programs that help struggling families put food 
on the table. The administration's annual budget proposal for 
the USDA outlines a set of priorities that reflect this 
disturbing diversion from the mission of FNS.
    For example, the proposed budget sought to make it harder 
for schools in low income areas to provide free meals to all 
students by excluding 3,000 schools from the widely popular 
community eligibility provision. As a result, up to 1.3 million 
children could be left without school meals and those schools 
will have to spend more time with administrative paperwork.
    Additionally, through rulemaking and other actions, the 
administration is actively taking steps to undermine food 
security. For example, USDA recently moved to prevent children 
who rely on noncustodial adults, including children whose 
families are struggling with the opioid epidemic, from 
accessing free school meals through their families' 
participation in Supplemental Nutrition Assistance Program, or 
SNAP. Worse still, the administration is exploring ways to 
redefine poverty itself by upending how the Federal poverty 
line is adjusted for inflation. If successful, thousands of 
children whose families still struggle to make ends meet would 
be cutoff from vital nutrition assistance.
    All of these actions together reveal a Department of 
Agriculture that is not adhering to its commitment to provide 
basic nutrition assistance for the children and families who 
need it most.
    Each member here knows that providing children with healthy 
and nutritious food is vital to fostering the success of our 
Nation's future. When children are hungry they can't learn. 
Restricting access to nutrition assistance programs will 
prevent children from reaching their full potential and 
ultimately it will cost more in the long run.
    We can and must do better.
    Mr. Lipps, thank you again for being here. I look forward 
to the opportunity to discuss these important issues under the 
purview of the Food and Nutrition Service, and I do hope that 
we can all work together on behalf of our Nation's children and 
families.
    And now I will yield to the ranking member for the purpose 
of an opening statement. I recognize the distinguished ranking 
member, Mr. Comber, for the purpose of making an opening 
statement.
    [The statement of Chairwoman Bonamici follows:]

 Prepared Statement of Hon. Suzanne Bonamici, Chairwoman, Subcommittee 
                   on Civil Rights and Human Services

    Mr. Lipps, thank you for appearing before the Committee today on 
behalf of the U.S. Department of Agriculture's Food and Nutrition 
Service, or FNS.
    Before I begin, I would like to recognize and thank the Department 
for working with staff during the government shutdown earlier this 
year. Members were justifiably concerned with the effect of the 
shutdown on families across the country and we appreciate your efforts 
to minimize the disruption.
    According to its mission statement, the main objective of FNS is to 
end hunger and obesity and strengthen access to healthy food through 
nutrition assistance programs.
    Today's hearing is an opportunity to assess the commitment of FNS 
to that mission.
    Congress has long-recognized the Federal Government's important 
role in addressing food insecurity, which affects roughly 15 million 
U.S. households including a staggering 1 in 5 children in my home State 
of Oregon.
    Over the course of more than 70 years, Federal child nutrition 
programs have proven to be an effective approach to providing children 
with the healthy food they need to succeed. Research shows that 
expanding access to nutritious food through child nutrition programs 
not only improves children's educational growth and outcomes, but also 
improves their health through adulthood.
    Because of these benefits, Congress has historically supported and 
strengthened child nutrition programs on a bipartisan basis. In fact, 
today, child nutrition programs operated by FNS serve more than 30 
million children throughout the year in nearly every corner of the 
country. In Oregon, nearly 300,000 students participated in the 
National School Lunch Program, and nearly 150,000 students participated 
in the School Breakfast Program last school year.
    We should all be uniting in support of these valuable evidence-
based programs. Yet, under this Administration, FNS has repeatedly 
rolled back nutrition standards, which are an important part of 
addressing childhood obesity and diabetes, and undermined programs that 
help struggling families put food on the table.
    The Administration's annual budget proposal for the USDA outlines a 
set of priorities that reflects this disturbing diversion from the 
mission of FNS.
    For example, the proposed budget sought to make it harder for 
schools in low-income areas to provide free meals to all students by 
excluding 3,000 schools from the widely popular Community Eligibility 
Provision. As a result, up to 1.3 million children could be left 
without free school meals, and those schools will have to spend more 
time with administrative paperwork.
    Additionally, through rulemaking and other actions, the 
Administration is actively taking steps to undermine food security. For 
example, USDA recently moved to prevent children who rely on non-
custodial adults including children whose families are struggling with 
the opioid epidemic from accessing free school meals through their 
families' participation in the Supplemental Nutrition Assistance 
Program, or SNAP.
    Worse still, the Administration is exploring ways to redefine 
poverty itself by upending how the Federal poverty line is adjusted for 
inflation. If successful, thousands of children whose families struggle 
to make ends meet would be cutoff from vital nutrition assistance. All 
of these actions taken together reveal a Department of Agriculture that 
is not adhering to its commitment to provide basic nutrition assistance 
for the children and families who need it most.
    Each Member here knows that providing children with healthy and 
nutritious food is vital to fostering the success of our Nation's 
future. When children are hungry, they can't learn. Restricting access 
to nutrition assistance programs will prevent children from reaching 
their full potential, and ultimately will cost more in the long run. We 
can and must do better.
    Mr. Lipps, thank you again for being here. I look forward to this 
opportunity to discuss the important issues under the purview of the 
Food and Nutrition Service and I do hope that we can all work together 
on behalf of our Nation's children and families.
    Now, I will yield to the Ranking Member for the purpose of an 
opening statement.
                                 ______
                                 
    Mr. COMER. Thank you, Madam Chair, for yielding.
    We are here today to help understand the USDA and child 
nutrition programs that it helps support. Severe and critical 
role in ensuring that America's youth have access to nutritious 
and healthy food.
    I believe wholeheartedly that no kid should go hungry. The 
wellbeing of every American child is important and proper 
nutrition is part of helping children succeed in life. Students 
cannot learn if they are hungry. The school meal program 
provides valuable assistance to schools to help meet the needs 
of their students through the breakfast, lunch, and snack 
programs. USDA must do all it can to make the administration of 
these school meal programs as easy as possible while 
continuously improving program efficiency and integrity. 
Systems run best when they are operated from the ground up, so 
less paperwork and administrative burden would aid in focusing 
these programs back to their original intent, serving our 
students.
    Another important program FNS oversees is the Summer Food 
Service Program. As we know, this program helps provide meals 
to kids in need during the summer months and I look forward to 
working with the Administration to help reach more children, 
especially in rural communities like the one I represent.
    WIC is another program that I hope we discuss with our 
witness today. This program helps provide young children access 
to better nutrition. There are many positive aspects of this 
program and we must ensure benefits are reaching their intended 
recipients by making any needed reforms to prevent waste and 
abuse. I am hopeful the switch to electronic benefits will help 
and I again look forward to working with the USDA to see how we 
can best help States to support some of our most vulnerable 
constituents.
    In general, rather than focusing on increased Federal 
dollars or regulations that limit local providers' ability to 
provide nutritious meals, USDA should work with their local 
partners to help kids with the greatest need get nutritious 
meals. As someone who has worked on these programs as 
Commissioner of Agriculture in Kentucky, I can attest to the 
importance of the national government providing these programs 
the freedom, resources, and accountability they need to find 
and tackle childhood hunger.
    The people sharing neighborhoods and towns with hungry 
youth are more capable of addressing the needs they face than 
legislators in Washington. Recognizing this fact is the best 
way to address the individual needs of children and promises 
the greatest results in getting food into the stomachs of 
America's hungriest children.
    I look forward to learning more about the Department's 
efforts to address these pressing needs, and I am eager to work 
with my colleagues to defeat childhood hunger.
    With that, I yield back.
    Chairwoman BONAMICI. Thank you very much, Mr. Comer.
    And I will now introduce our witness. Brandon Lipps is 
Administrator of USDA's Food and Nutrition Service where he 
leads the agency in administering the Nation's Federal 
nutrition assistance programs, including the Supplemental 
Nutrition Assistance program, or SNAP, school meals, the Child 
and Adult Care Feeding Program, the Special Supplemental 
Nutrition Program for Women, Infants, and Children, or WIC. He 
is also currently serving as Acting Deputy Under Secretary for 
Food, Nutrition, and Consumer Services, reporting to 
Agriculture Secretary Sonny Perdue.
    We appreciate our witness for being here today and look 
forward to your testimony.
    Let me remind the witness that we have read your written 
statement and it will appear in full in the hearing record. 
Pursuant to committee rule 7d and committee practice, you are 
asked to limit your oral presentation to a 5 minute summary of 
your written statement.
    Let me remind the witness that pursuant to Title 18 of the 
U.S. Code Section 1001, it is illegal to knowingly and 
willfully falsify any statement, representation, writing, 
document, or material fact presented to Congress, or otherwise 
conceal or cover up material fact.
    Before you begin your testimony please remember to press 
the button on the microphone in front of you so you will turn 
it on and members can hear you. And as you speak, the light 
will in front of you will turn green. After 4 minutes the light 
will turn yellow to signal that you have 1 minute remaining. 
When the light turns red your 5 minutes have expired.
    We will let the witness make his presentation before we 
move to member questions. When answering a question please 
remember once again to turn your microphone on.
    I now recognize Mr. Lipps for your testimony.

Prepared Statement of Hon. James Comer, Ranking Member, Subcommittee on 
                    Civil Rights and Human Services

    Thank you for yielding.
    We're here today because we understand that USDA and the child 
nutrition programs it helps support, serve a critical role in ensuring 
that America's youth have access to nutritious and healthy food. I 
believe wholeheartedly that no kid should go hungry. The wellbeing of 
every American child is important, and proper nutrition is part of 
helping children succeed in life.
    Students cannot learn if they are hungry. The school meal program 
provides valuable assistance to schools to help meet the needs of their 
students through the breakfast, lunch, and snack programs.
    USDA must do all it can to make the administration of these school 
meal programs as easy as possible, while continuously improving program 
efficiency and integrity. Systems run best when they're operated from 
the ground up, so less paperwork and administrative burden would aid in 
refocusing these programs back to their original intent serving our 
students.
    Another important program FNS oversees is the Summer Food Service 
Program. As we know this program helps provide meals to kids in need 
during the summer months and I look forward to working with the 
administration to help reach more children, especially in rural 
communities. WIC is another program that I hope we discuss with our 
witness today. This program helps provide young children access to 
better nutrition. There are many positive aspects of this program, and 
we must ensure benefits are reaching their intended recipients by 
making any needed reforms to prevent waste and abuse. I am hopeful the 
switch to electronic benefits will help and
    I again look forward to working with USDA to see how we can best 
help States to support some of our most vulnerable constituents.
    In general, rather than focusing on increased Federal dollars or 
regulations that limit local providers' ability to provide nutritious 
meals, USDA should work with their local partners to help kids with the 
greatest need get nutritious meals. As someone who has worked on these 
programs as the Commissioner of Agriculture in Kentucky, I can attest 
to the importance of the national government providing these programs 
the freedom, resources, and accountability they need to find and tackle 
childhood hunger.
    The people sharing neighborhoods and towns with hungry youth are 
more capable of addressing the needs they face than legislators in 
Washington. Recognizing this fact is the best way to address the 
individual needs of children and promises the greatest results in 
getting food into the stomachs of America's hungriest children.
    I look forward to learning more about the Department's efforts to 
address these pressing needs, and I'm eager to work with my colleagues 
to defeat childhood hunger.
    Thank you, and I yield back.
                                 ______
                                 

 STATEMENT OF BRANDON LIPPS, ADMINISTRATOR, FOOD AND NUTRITION 
 SERVICE & ACTING DEPUTY UNDER SECRETARY, FOOD, NUTRITION, AND 
       CONSUMER SERVICES, U.S. DEPARTMENT OF AGRICULTURE


    Mr. LIPPS. Thank you, Chairwoman Bonamici, Ranking Member 
Comer, and distinguished members of the committee for the 
opportunity to testify before you today. As the Chairwoman 
said, I am Brandon Lipps; I am the Acting Deputy Under 
Secretary for the Food, Nutrition, and Consumer Services 
mission area at USDA and the Administrator of the Food and 
Nutrition Service.
    Before I get into my testimony, let me congratulate the 
young men and women that are here shadowing some of you today 
and extend an open invitation. We love to encourage public 
service in the mission of FNS, and if any of you would like to 
join us up there, we would be happy to work with you on giving 
you an opportunity to come see the important work that we do at 
the Food and Nutrition Service every day.
    The FNS budget, which is nearly $100 billion a year across 
15 programs is roughly two-thirds of USDA's entire budget. This 
committee is keenly aware of the critical importance of these 
programs, which include school meals, the Child and Adult Care 
Food Program, which we commonly refer to as CACFP, the Summer 
Food Service Program, and the WIC Program. We know that 
families across the Nation rely on these programs every day.
    On an average school day, almost 30 million children 
receive a school lunch and almost 15 million children receive a 
school breakfast. Over 4.5 million receive meals and snacks in 
childcare settings through CACFP. Last summer almost 146 
million meals were served to almost 3 million children through 
the Summer Food Service Program, and WIC served a monthly 
average of 6.9 million women, infants, and children in Fiscal 
Year 2018. These programs ensure access to nutritious foods so 
that children can grow, develop, and learn, and are central to 
Secretary Perdue's pledge to do right and feed everyone.
    FNS is working to implement the Secretary's pledge by 
continuing our longstanding commitment to ensuring all Federal 
nutrition assistance programs serve eligible populations 
effectively and make optimal use of Federal resources. We look 
to accomplish this by focusing on three principles, to improve 
customer service for our partners and participants, to protect 
and enhance integrity, and to ensure that FNS programs are 
helping participants move toward self-sufficiency and 
independence.
    We all know that if infants don't start off with adequate 
nutrition they have a difficult time moving into a school 
environment where they can learn. If they don't have full 
stomachs while they are in school they again have a difficult 
time learning, and we want them to develop into productive 
adults in society.
    Secretary Perdue has placed a robust focus on customer 
service across USDA. Given the number and diversity of FNS 
customers, those who participate and those who partner with us 
on our programs are at the center of that effort. Great 
customer service starts with listening to and engaging with our 
customers.
    We heard first and foremost from our customers, the school 
nutrition professionals want students back in the cafeteria as 
lunch participation has continued to decline since the 
standards were implemented in 2012, particularly in the paid 
meal and reduced-price categories. To create school meals that 
were both nutritious and appealing to the students being 
served, schools needed targeted adjustments to the existing 
meal standards. That is why one of Secretary Perdue's first 
actions was to extend school meal flexibilities related to 
milk, whole grains, and sodium. Keeping with the goals of the 
underlying statute, USDA made these flexibilities permanent and 
provided the certainty that schools needed as they continue to 
implement the nutrition standards.
    We also heard that education and training standards for 
nutrition professionals that USDA implemented under the last 
reauthorization put strain on small and rural school districts. 
Knowing this, we revised those rules to allow these districts 
more flexibility in the hiring of the individuals who run their 
school nutrition programs.
    Let me turn to the President's budget request for Fiscal 
Year 2020, which fully funds the child nutrition programs, 
including school meals, the Child and Adult Care Food Program, 
the Summer Food Service Program, and the Special Milk Program, 
so that every child has access to nutritious meals in schools, 
childcare centers, daycare homes, and other facilities 
throughout the school year, and when school is not in session.
    The request also fully funds WIC to ensure that all women, 
infants, and children who are eligible and wish to participate 
may do so. As you may be aware, birth rates are declining, 
particularly among women under the age of 30. This has 
contributed in declines in the WIC population for a number of 
years, but we estimate that participation will average about 
6.6 million women and infants and children for Fiscal Year 
2020, about the same number as participated last year.
    The President's budget request also makes targeted 
proposals to improve program integrity and customer service in 
the school meals programs. Let me highlight a few. We propose 
stronger income eligibility verification to focus on those 
applications that are more prone for risk for error. Our 
research-based approach supports operators and strategies to 
achieve greater accuracy in serving school meals to eligible 
children. We heard from States that they wanted to ensure the 
integrity of their program was strong, so the budget requests a 
$20 million increase, for a total of $25 million, in grants to 
States to modernize systems and improve program operations 
oversight and overall program integrity. General State 
administrative grants are capped and with competing demands for 
staff and activities related to administrative reviews, States 
are often not able to prioritize technology upgrades.
    In regards to reauthorization, I know you have a large and 
important task ahead of you. Because of their scope and 
significance to families and communities across America, 
Congress has a long history of constructive bipartisan action 
to strengthen them. I am pleased to join you in that spirit 
today when we work together to move these programs forward.
    Let me close by saying that I know the painstaking effort 
required to develop legislation of this size and complexity, 
and we at the Food and Nutrition Service stand ready to provide 
any support and technical assistance that you may need as you 
deliberate these important matters.
    I am happy to answer any questions that you may have.
    [The statement of Mr. Lipps follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman BONAMICI. Thank you for your testimony.
    Before we begin questions, I want to remind members who 
wish to insert a written statement into the record, they may do 
so by submitting them to the committee clerk electronically in 
Microsoft Word format by 5 p.m. on June 18, 2019.
    Under committee rule 8a, we will now question the witness 
under the 5 minute rule. As chair, I will go first. We will 
then alternate between the parties.
    I now recognize myself for 5 minutes.
    Mr. Lipps, as I mentioned in my opening statement, I am 
concerned about the Department's Fiscal Year 2020 budget 
proposal concerning a change to the community eligibility 
provision that would prevent schools from using an area average 
to determine their identified student percentage, or ISP. This 
is important to the schools in the district I represent. In 
fact, I just had lunch with some students last week and spoke 
with the people administering the program. This is an important 
issue for them. If enacted, each individual school would need 
to meet the 40 percent ISP threshold, resulting in thousands of 
schools losing the ability to use CEP and more than a million 
children losing access to free meals through this provision.
    What is the Department's rationale for requesting this 
policy change?
    Mr. LIPPS. Chairwoman, first let me be clear that no 
students are eligible for paid or free would lose eligibility 
under that provision. They would have to enter through a 
different application process, but they would not lose 
eligibility.
    The President's budget put forward a proposal that offers 
an opportunity for the savings from that plan to be invested in 
other areas. We know there are a lot of competing priorities in 
child nutrition as you consider those, and so we put that 
forward for consideration, ensuring that all of those unpaid 
and free are still eligible. Schools that are above that 40 
percent threshold can continue to operate, it is just not on a 
district level.
    Chairwoman BONAMICI. I understand, however, when I speak 
with schools at home, this program reduces stigma and the 
paperwork burden for schools. And districts tell us that it is 
working well. It seems that is in line with the customer 
service priority you recognized. I think we should give the 
districts options to streamline enrollment in school meal 
programs and CEP is a key part of that.
    I wanted to move on to Summer EBT. In 2012 the FNS 
published evaluations of Summer EBT demonstrations, which were 
designed to test alternative methods of providing nutrition to 
low income students during the summer. And in Oregon the 
program showed a 5.2 percentage reduction in very low food 
insecurity, which is the most severe form of food insecurity 
among children. Yet, in reviewing applications for the round of 
Summer EBT projects beginning this year, the Department chose 
to discontinue funding for the program in Oregon. In fact, the 
Department is only funding four State or tribal projects over 
the next 3 years, compared to 10 funded last summer.
    So your Department found that the Oregon Summer EBT project 
reduced very low food insecurity among children. Do you agree 
with that finding your Department made?
    Mr. LIPPS. Yes, ma'am, that is correct.
    Chairwoman BONAMICI. Well, it is interesting, if we all 
agree that the Oregon Summer EBT Program reduced very low food 
insecurity, why did the Department decide to end funding to 
Oregon, therefore putting those children once again at risk for 
food insecurity?
    Mr. LIPPS. Chairwoman, that is an important question and 
the Secretary and I agree with you on that very point. The 
money provided for these projects is demonstration money that 
was originally provided in the Appropriations Act of 2010. The 
Department has found in a number of areas that very low food 
insecurity in children has been reduced due to the Summer EBT 
Programs. We think it is an important program that has worked 
well. We have obtained that data and reported it to Congress. 
Our interest is moving on to researching areas of new 
information as that demonstration money is given to us to 
report back to Congress on things that can work well, while you 
continue to consider how to move forward in feeding children in 
the summer.
    We recognize that is a difficult question. We want to work 
with you on that as we move forward. The process was 
competitive this year in applications that were submitted for 
what projects would be funded that can provide us new 
information on how to better serve children in the summer. And 
I think our interests are aligned on that front for sure.
    Chairwoman BONAMICI. Well, and I appreciate that and I look 
forward to continuing the conversation. It feels unacceptable 
for the Department to have evidence from its own evaluations 
that a program reduces severe child hunger and then 
nevertheless the program is cut. So I would like to work with 
you and my colleagues on both sides of the aisle to address 
that. If there are other priorities that are considered a head 
of that, I think we need to have that conversation.
    And just briefly back to community eligibility, we have had 
many conversations in this committee about community 
eligibility, and I understand that you said that there are 
other ways for the students to access community--or the 
districts to access community eligibility. However, there are 
significant barriers to families and filling out applications. 
Some people are unaware of it. And I am sure that there are 
children who are eligible who aren't filling out the paperwork. 
Also, the stigma that is attached disappears with community 
eligibility. And once again, when I speak with the districts 
and the school nutrition providers in Oregon, they are very, 
very supportive of expanding access to community eligibility 
because it does streamline the paperwork and make it easier for 
the school, but also reduces that stigma. So I hope we can work 
together on that as well.
    I now recognize the ranking member, Mr. Comer, from 
Kentucky, for 5 minutes for your questions.
    Mr. COMER. Thank you for yielding.
    Mr. Under Secretary, it is great to have you here today. I 
know that school food personnel want to serve healthy, tasty 
meals to kids. And I have spoken with several school nutrition 
administrators all across the first congressional district of 
Kentucky that tell me they have a challenging time wading 
through the regulations to try to come up with meals that kids 
like that meet the regulations on the Federal level.
    So my question--my first question--how are the new 
regulations on grains, sodium, and milk going to help my 
constituents serve meals to those kids?
    Mr. LIPPS. Congressman Comer, the flexibility given on 
those three items are flexibilities that were requested 
directly from the school meals professionals that serve our 
kids every day. We heard that and traveled throughout the 
country, the Secretary did, I did. We certainly heard it in 
comments. I agree with you, school nutrition professionals 
don't want to serve kids meals that aren't nutritious. That is 
their goal when they show up at work every day. And they are 
looking those kids in the eyes and wanting to help them make 
better health decisions throughout their life. And I think they 
are all committed to that. They requested some minimal 
flexibilities to the standards that would allow kids to eat 
those meals, to reduce the waste, and ensure that kids are 
getting the nutrition that they need so that we are not sending 
kids home, some to an empty cupboard who aren't eating the 
meals at school. And we believe those minimal flexibilities 
help accomplish that.
    Mr. COMER. Great. My congressional district borders four 
States and retailers who operate in more than one State often 
struggle with the excessive red tape and lack of uniformity 
amongst each State's WIC licensing process. In order to help 
streamline this process, can FNS direct States to start with 
the retailers existing SNAP licenses and only ask for 
additional information beyond what a retailer has already 
provided on their SNAP licenses? And if not, is there anything 
Congress can do to make that happen?
    Mr. LIPPS. That is a great question, Congressman. FNS 
retailers are authorized at the Federal level by FNS. WIC 
retailers are authorized on the State level by the WIC State 
agencies. I believe that there are some statutory impediments 
to us changing how that process works, so I think off line we 
can engage with you on opportunities to move that forward. We 
certainly hear those challenges from retailers as well. And the 
important thing is we have as many retailers as possible in the 
system so that the customers have access to that.
    Mr. COMER. Absolutely. And we want to work with you on that 
because unfortunately in this environment many of our rural 
communities are having less food retailers now, grocery 
retailers, and we are living in an environment where we have 
more food deserts, not just in the urban areas but in the rural 
areas as well. So anything we can do to help with that, to make 
that process easier, we want to do that on this committee. So 
we look forward to working with you on that.
    My next question, in the past there have been issues with 
certain items that are part of a WIC prescription not being 
available during times of disaster due to production or 
logistical challenges. While some States are quick to provide 
substitutions, some may be slower to act, causing WIC 
participants to be unable to access items on their 
prescription. Does USDA have the authority it needs to provide 
States with flexibility to authorize item substitution at 
authorized merchants during times of disaster?
    Mr. LIPPS. Congressman, I believe that we do. We will take 
a deeper look at that. As you noted, we have given that 
flexibility to a number of States in the recent disasters that 
we have had just since I have been at the Food and Nutrition 
Service. It sounds like we may need to do some work with some 
of the States to ensure that their processes are in place to 
get that communication more quickly accomplished. We do our 
best to turn those around very quickly at FNS.
    Mr. COMER. Great.
    Let me get one more question in here. When the idea of 
reauthorization of child nutrition laws comes up I hear a lot 
about streamlining applications, especially for the summer. Can 
you tell me why streamlining is necessary and if there is 
anything the agency can do to help improve this effort and what 
must be legislated?
    Mr. LIPPS. Yes, sir. We have taken a number of actions at 
FNS in recent years to start streamlining applications. There 
are a lot of programs that operate to feed kids throughout the 
year, we have 15 programs at FNS, and a lot of those are for 
summer. And we hear from operators on the ground very often 
about the difficulty from moving, for example, from a CACFP At 
Risk operator to a Summer Food Service Program operator. And so 
the agency has taken actions to streamline some of those 
operations. I think there is some more that can be done that 
would require legislative action, and we would be happy to 
engage with you on those.
    Mr. COMER. Great.
    Thank you, Mr. Under Secretary.
    Madam Chair, I yield back.
    Mr. LIPPS. Thank you.
    Chairwoman BONAMICI. Thank you. I now recognize 
Representative Fudge from Ohio for 5 minutes for your 
questions.
    Ms. FUDGE. Thank you very much, Madam Chair, and thank you, 
Mr. Lipps, for being here.
    Madam chair, I do have a shadow with me today who is a part 
of the National Foster Youth Institute's shadow day, Nadia 
Goful.
    Thank you for being here today.
    Ms. BONAMICI. Welcome.
    Ms. FUDGE. Mr. Lipps, hunger is very, very real in the 
State of Ohio, as it is in the rest of this Nation. Ohio has 
been ranked ninth worst for low food security from 2015 to 
2017. You oversee the administration of SNAP, is that correct?
    Mr. LIPPS. Yes, ma'am.
    Ms. FUDGE. This also includes how you deal with ABAWDs, is 
that correct?
    Mr. LIPPS. That is correct.
    Ms. FUDGE. Okay. It is my understanding that there is a 
recent proposal for a rule that would limit access to SNAP 
benefits by ABAWDs, which may affect more than 700,000 persons. 
Now, let me just say--and I have said it before--it is 
absolutely dishonest and immoral for anyone to suggest that 
poor people do not want to work. I assure you, people want a 
hand up, they don't want a hand out. And it is insulting to 
suggest otherwise. And so clearly I have a real problem with 
how we have handled this particular population.
    Now, you have given us a lot of data today, and I have 
asked repeatedly to your Department to give me data on who 
ABAWDs are. We have no idea who they are because you don't 
collect the data. You have the authority to do it, why do you 
not do it?
    Mr. LIPPS. Congresswoman, the only data that FNS has is 
that is collected through the quality control process, which is 
data collected at enrollment and certification for those 
recipients. Congress has over time discouraged us from 
requiring recipients to report more information for the--
    Ms. FUDGE. That is not my question, sir. You have the 
authority to do it. Why do you not?
    Mr. LIPPS. Congress has discouraged us over time from 
collecting more information.
    Ms. FUDGE. We have not said you cannot.
    Mr. LIPPS. Over time Congress has discouraged that. We 
don't collect that at the Federal level. What we do know about 
ABAWDs is the definition of ABAWDs that Congress put in statute 
for that statutory requirement on them is that they are between 
the ages of 18 and 49, they don't have dependents in the 
household, they are meant to--
    Ms. FUDGE. It doesn't tell us if they are veterans, it 
doesn't tell us if they are mentally ill, it doesn't tell if 
they are homeless, if they are sick. And even your secretary, 
Secretary Perdue, indicated that ABAWD definition needed some 
fine tuning. Are you at least trying to fine tune it?
    Mr. LIPPS. I think the definition is clear, Congresswoman. 
I would be happy to talk you through what we know about that.
    Ms. FUDGE. I know what you know about it. So my position 
then, since you choose not to collect the data, is that you 
want to operate in the dark purposely, operate in the dark and 
punish people and you don't even know who they are.
    I think it is really a shame that we would treat people who 
we don't even know, make them believe that we think that they 
are lazy, make them believe that we think that they are not 
worthy or deserving of the benefits that this government should 
be able to give them.
    Let me move on. I want to talk a little bit about 
categorical eligibility in SNAP. Now, you talked about 
flexibility and I know that Republicans in particular are very, 
very big on States' rights and the flexibility of States. So 
why would you take away the flexibility of States as it relates 
to categorical eligibility?
    Mr. LIPPS. Congresswoman, let me comment on your previous 
statement. It is the State's job to know these recipients and 
they are in fact required to get to know--
    Ms. FUDGE. Please answer my question. I have a limited 
time.
    Mr. LIPPS [continuing]. those recipients and to assess 
them. And the agency has done a lot of work to make that 
happen.
    Ms. FUDGE. But you don't have the information and you are 
making the decision. So could you just answer the second 
question?
    Mr. LIPPS. The State is required to do those things. We 
have regulations that required in a memo--
    Ms. FUDGE. You don't have--they are not making the 
decisions, sir. Could you just answer my question?
    Mr. LIPPS. They are making a decision on who that 
requirement applies to. And I would be happy to share with you 
the information on that.
    Ms. FUDGE. Could you just answer my question.
    Mr. LIPPS. Yes, ma'am. Remind me of your question on 
categorical eligibility.
    Ms. FUDGE. Why do you want to take away the flexibility 
from the States by the rule that you are proposing to change 
cat el?
    Mr. LIPPS. Congresswoman, balancing how an individual 
enters a program and the integrity required with that and 
ensuring that the program benefits go to the right people is 
always a difficult call. And we want to make sure that the 
program has the utmost integrity on that front. Some people are 
currently being qualified for the SNAP program by receiving a 
brochure from another program. I don't think any of us think 
that is the integrity that this program needs to have. And the 
rule that is in our regulatory agenda on broad based 
categorical eligibility, we do believe will be intended to 
address that problem.
    Ms. FUDGE. So in some instances you trust the States, and 
in others you don't?
    Mr. LIPPS. It is our job to set guidelines to ensure that 
integrity is carried throughout the program and that recipients 
across the States are treated fairly.
    Ms. FUDGE. But the fact is you trust them in some things 
and you don't in others. You don't trust them in feeding hungry 
children.
    Mr. LIPPS. It is--
    Ms. FUDGE. You don't trust them in feeding sick or elderly.
    Mr. LIPPS. That is not--
    Ms. FUDGE. That is a place you don't trust--
    Mr. LIPPS. That is not accurate, Congresswoman.
    Ms. FUDGE. That is the choice you have just made.
    Mr. LIPPS. It is our job to ensure the integrity throughout 
the program.
    Ms. FUDGE. I yield back.
    Sir, my time is done and I yield back, madam chair.
    Thank you.
    Chairwoman BONAMICI. I now recognize Representative 
Stefanik from New York for 5 minutes for your questions.
    Ms. STEFANIK. Thank you, Chairwoman, and thank you, Mr. 
Lipps, for being here today.
    I represent New York's 21st district, a very rural part of 
the Northeast, and frankly the East Coast. And in my district, 
as we have heard many other members and you testify, it is 
important to recognize that children are not just in need 
during the school year, but also during the summer months. And 
that is a vital component of child nutrition services. We know 
that the program has a participation rate of below 20 percent 
and the number of meals served during the summer has been 
decreasing in recent years.
    What can we do to strengthen this program and help children 
gain access to food during the summer months?
    I would specifically also like to hear your thoughts on 
rural regions, because there are transportation challenges in a 
district like mine, that I have heard first hand from families. 
You talked a bit about streamlining operations, but I would 
love to hear more ideas about how we can strengthen the program 
during the summer months.
    Mr. LIPPS. Sure. Thanks for that question, Congresswoman.
    I think everybody in this room agrees that is a very 
important question and a difficult one that we need to work 
together to solve.
    FNS has been testing methods to feed children in the summer 
for a number of years. The authority was given in 2010 that I 
talked to one of your colleagues about earlier. We have learned 
a lot from that about how we can help children be fed in the 
summer through summer EBT. The Summer Food Service Program is 
great, but is generally provided at congregate feeding sites. 
That is often a situation both in urban and rural areas, but 
certainly I understand from a rural area the transportation 
issues involved in that. So streamlining is part of that, but 
that doesn't get children to the meal site, that doesn't get 
food to the children.
    We have tested a number of methods that we do know work. We 
continue to test additional methods. And we would be happy to 
talk through all of those with you off line, certainly as you 
all potentially consider child nutrition reauthorization. We 
think this is one of the most important questions.
    Ms. STEFANIK. What are some of those methods that you have 
found to be effective based upon the tests?
    Mr. LIPPS. Sure. We have tested varying levels of benefits 
in the Summer EBT Program, which is where additional dollars 
are provided, particularly on the SNAP cards, for families to 
have additional money to buy food in the summertime. We have 
shown a $30.00 per month level that very low food insecurity in 
children has decreased. And that is the measure of the worst 
hunger for children in this country. So we think that is a very 
important measurement. We have shown in some instances that 
children who were provided allocations of actual food has 
improved their eating habits in the summer because they are 
given nutritious food to eat. Certainly anyone who shows up to 
a summer feeding site is having access to food in the summer. 
So all of those are working.
    How we expand that on a level that works for all the 
children across this country continues to be a difficult 
question, but one I think we can move forward in addressing 
together.
    Ms. STEFANIK. And on the rural piece in particular, again, 
this is not a one size fits all when you are dealing with 
differences in, you know, just rural versus suburban and urban 
communities in New York State. Again, my district, I have 194 
towns and villages. It is very rural. I have the largest 
counties in the State. So the transportation piece is critical.
    What other innovative concepts have you tested specifically 
for providing support during the summer months in rural 
communities?
    Mr. LIPPS. Most of the testing in rural communities has 
been through summer EBT. We are working on some new 
opportunities now that we can brief you on, but we don't have 
data on that at this time.
    Ms. STEFANIK. Okay. I would love to work with the 
Department to identify what those innovative solutions are for 
rural communities. My district is a great example of a district 
that is in need and that is quite rural. So let us work 
together on that.
    And with that, I yield back.
    Mr. LIPPS. Thank you.
    Chairwoman BONAMICI. Thank you.
    I now recognize Representative Dr. Schrier from Washington 
for 5 minutes for your questions.
    Dr. SCHRIER. Thank you, Madam Chair.
    Mr. Lipps, thank you for being here today.
    Mr. LIPPS. Good morning.
    Dr. SCHRIER. I am Dr. Schrier, I am a pediatrician, and so 
I do have this focus on children's nutrition and not just 
feeding--
    Mr. LIPPS. Sure.
    Dr. SCHRIER [continuing]. but really making sure that what 
they get gives them good nutrition. So I am concerned about the 
rolling back of a lot of the targets, for example, the sodium 
reduction target. And I recognize, of course, that most 
children do not have high blood pressure and this may not have 
an immediate impact, but over time what we are doing really is 
establishing what their palates are. And so if we give kids 
like a salt tooth or a sweet tooth, that lasts forever and will 
affect their ultimate outcomes. So the sodium standard 
reduction, the standards for whole grains and relaxing those 
standards, and also the equivalency of sugar sweetened milk 
with other milk that I would argue is also not good for 
children's health in the long run.
    And so there are reporting standards as well so that we 
know what schools are doing and who is complying. And it seems 
that we are not getting that information anymore. That the 2010 
Healthy Hunger Free Kids Act provided an additional $.06 per 
meal in reimbursement for schools that were meeting updated 
standards. And that is a good way for us to track how many 
schools are meeting it. In 2016 about 90 percent were.
    And I was wondering, is the USDA still collecting this 
data?
    Mr. LIPPS. Dr. Schrier, we are not collecting that specific 
information. Let me tell you a few facts that we do know. We 
have a school nutrition and meal cost study that we conduct on 
a regular basis, probably not as often as any of us would like. 
What that does show is that students are wasting a quarter of 
their calories and nutrients in that program. That at the time 
of that study 30 percent of schools were not meeting sodium 
target 1, and even with that we were having that level of 
waste, 83 percent of schools were not meeting the whole grain 
standard, and milk consumption had reduced by almost 10 
percent.
    And on each of those three issues, I do want to be clear, 
people talk about rolling back and it makes the headlines a 
lot, Congress had provided flexibility on all three of these 
issues for a number of years in the annual appropriations 
process. Schools said to us, we need permanency so we can order 
their large quantities of food years out and plan their meals a 
year out. And this rule simply provided them permanency on 
those issues, which I do think around the edges on this is, as 
we talked about earlier with Mr. Comer, the school nutrition 
professionals, I think you would agree, really want to provide 
these kids nutritious meals, but they want to make sure that 
they are eating the food that they have.
    Dr. SCHRIER. I love that you brought that up, because we 
have heard in this committee wildly different statistics on 
this, and we even had a whole discussion--we had dietitians in 
here who specialize in crafting good tasting meals for kids 
that meet all of the requirements before they were rolled back, 
and they do not report these kinds of levels of waste. They 
report that the kids are eating the food and enjoying the food. 
And so we may want to have a further discussion down the line 
about how to make sure that dietitians are creating these meals 
and not just food service organizations that just drop off food 
and put it in the microwave.
    Mr. LIPPS. I agree, Dr. Schrier. It is not an easy 
question.
    I will say anecdotally I have gone to schools who have 
chefs on board who create wonderful meals that I enjoy and I 
sit down at the table with those kids and the kids who brought 
their lunch from home. And in one particular instance it was 
peanut butter and crackers and some--those fruit chewies--I 
cannot remember what they are called--and they are trading 
football cards for the food that he brought in his lunch when 
there is wonderful food on the table. So it is a lot deeper 
question than just these school meal standards.
    I do think we want to give some deference to the folks who 
are serving them and looking them in the eye every day.
    Dr. SCHRIER. And I am going to just respond to that because 
I completely understand what you are saying there, but I might 
take that in a little bit different direction because I have a 
10-year-old, so I know what we put in his lunch. I also see 
what his friends' parents put in their lunches, and they do 
sound a lot like that, a peanut butter sandwich without the 
crust and cookies and chips.
    Mr. LIPPS. I have that discussion with my 9-year-old every 
morning.
    Dr. SCHRIER. We don't discuss, we just give.
    Mr. LIPPS. It is important to talk them through why they 
are eating what they are eating.
    Dr. SCHRIER. That has been well established. But I wanted 
to talk with you--maybe in the future we could talk about 
whether we could provide good tasting chef/dietitian inspired 
meals that meet these requirements for all students, because 
they are all going to have future lives and I would love to 
create that palate in all of our kids. And, frankly, when it 
comes to a contrast between what school nutrition provides and 
needs, let us open that up for further discussion.
    Mr. LIPPS. Yes, we would be happy to engage with you. Thank 
you.
    Dr. SCHRIER. Thank you.
    Chairwoman BONAMICI. Thank you.
    I now recognize the ranking member of the full committee, 
Dr. Foxx from North Carolina for 5 minutes for your questions.
    Mrs. FOXX. Thank you, Madam Chairwoman. And, Dr. Schrier, 
your child probably appreciates the fact that you prepare the 
lunch and don't put the child in the school food service.
    Mr. Lipps, thank you for joining us today. In your 
testimony you discussed some efforts your office has made to 
improve integrity in the programs you operate. I appreciate 
hearing your efforts on this important issue. However, GAO has 
just completed a new report that notes the high rate of 
improper payments can suggest programs are inherently 
vulnerable to fraud. The report goes on to note that USDA has 
not established a process to assess risk and that existing 
efforts to assess the risk do not comprehensively consider 
fraud risks.
    It seems from the write up of the agency's oral comments on 
the report the agency believes it does not have risk 
assessments in place. Your testimony notes that you have 
switched to a risk based approach.
    So can you tell us what specifically the agency is doing in 
this capacity. And when you say ``more can be done'', can you 
discuss how that addresses what the GAO raised?
    Mr. LIPPS. Chairwoman Foxx, thanks for that question. And 
as you know, that report is relatively new and we haven't had 
an opportunity to put out our full response on that yet.
    I do want to clarify one point. The agency believes that it 
does have a risk assessment in place. It does not have the 
comprehensive risk assessment in place that GAO recommends for 
all Federal agencies, and we agreed with them that can be 
beneficial. There is no objection to increasing integrity in 
any of our programs at FNS, and we work on that every day. So 
we believe that we have good measures in place, but we are 
always happy to improve those, and we will be doing that moving 
forward.
    We think the verification proposal that we have in the 
budget on school meals is an important part of that. We put out 
an online school meals application that helps improve integrity 
in school meals and a verification toolkit that we provide the 
State agencies and schools to better administer that program as 
we move forward.
    Mrs. FOXX. Thank you, Mr. Lipps.
    Representative Bonamici asked you about the proposal to 
require each individual school to certify that they are 
eligible to participate in the community eligibility provision 
or CEP. Can you discuss how the budget is developed to maximize 
helping hungry students throughout the year and across 
programs? Further, can you State again whether that change will 
result in children eligible for reduced price or free lunch 
losing access to the program?
    Mr. LIPPS. Sure. Chairwoman Foxx, the eligibility criteria 
for this program are set in statute and this program does not 
change that. So children who are eligible under the guidelines 
provided in statute for this program will continue to be 
eligible. They will not be eligible through CEP, but through 
the general application process.
    And I will, as you request, repeat that proposal is put 
forward as an opportunity to target free and reduced priced 
meals to those kids in need of free and reduced price meals. 
And those of us who can afford to pay for our child's own 
meals, the taxpayer dollars that were previously going for 
that, you all can choose to enter into these other programs, 
such as important things we have been talking about on the 
summer program.
    Mrs. FOXX. Thank you.
    Madam Chairwoman, I would like to submit this GAO report 
titled ``USDA Has Reported Taking Some Steps to Reduce Improper 
Payments, But Should Comprehensively Assess Fraud Risk'' for 
the record.
    Chairwoman BONAMICI. Without objection.
    Mrs. FOXX. Thank you, Madam Chairwoman.
    I want to say that I eat lunch in every cafeteria I can eat 
in when I have the opportunity to do so and I always go into 
the cafeterias and thank the school food service for the work 
that they do in helping to prepare good meals for the students. 
These are generally people who don't make a lot of money, are 
very devoted to what they do, are very devoted to serving the 
students, and work hard at complying with the myriad of rules 
and regulations that we give to them. And I want to pat them on 
the back every time I am in a school and always do my utmost to 
try to eat a lunch there to show my support.
    So thank you for what USDA is doing.
    We must do better in terms of fraud and abuse so that the 
truly needy students get the food that they need.
    Thank you very much, Madam Chairwoman.
    Mr. LIPPS. Thank you.
    Chairwoman BONAMICI. I now recognize Representative Hayes 
from Connecticut for 5 minutes for your questions.
    Ms. HAYES. Thank you, Madam Chair, and thank you, Mr. 
Lipps, for being here today.
    I am scribbling so many things on this paper because, as 
usual, I hear many racist, wrong, and uninformed comments about 
what this looks like on the ground. Children don't choose to be 
recipients of school lunch programs--free school lunch 
programs.
    Some other things that I have heard that I want to address 
really quickly, community eligibility, talking about wading 
through regulations, all this conversation surrounding meals 
that kids like or don't like, the administrative costs, the 
paperwork, school nutrition professionals don't want to serve 
kids meals they don't like, they have to look into the faces of 
kids as they are giving them meals that they don't like. I can 
tell you what school personnel don't like--over here--I can 
tell you what school personnel don't like having been a teacher 
for 15 years, it is hungry children. Hungry kids don't learn.
    Mr. LIPPS. We all agree with that.
    Ms. HAYES. So it is not about--this isn't this idea of the 
regulation, the paperwork, or what kids choose or like, kids 
come to school hungry. They like to eat, they like to be fed. 
So I want you to just consider that as you move forward. It is 
not just--
    Mr. LIPPS. Congresswoman, I will say that I have been to 
schools--
    Ms. HAYES. That wasn't a question. That wasn't a question.
    Mr. LIPPS [continuing]. and sit down with those kids and--
    Ms. HAYES. That wasn't a question.
    Mr. LIPPS [continuing]. watch them not eat those meals.
    Ms. HAYES. I am reclaiming my time, madam chair.
    Mr. LIPPS. And that deeply bothers me.
    Ms. HAYES. That wasn't a question. I have 5 minutes and I 
have several questions I want to get through.
    Mr. LIPPS. Thank you.
    Ms. HAYES. I was just making a statement.
    So when we talk about the economic impact, last week your 
Department's own Economic Research Service published a 
comprehensive study including that when families redeem 
nutrition assistance or SNAP benefits local retailers are 
supported and job growth is boosted. The study found that for 
every $10,000 of additional SNAP spending employment in non 
metro areas increased by nearly half a percent.
    This research gives confirmation from your Department of 
what multiple independent high quality studies show, that SNAP 
benefits support and create jobs in our economy. Therefore, how 
can you justify the administration's attempt to cut SNAP when 
these proposals would not only take away food but also reduce 
employment?
    Mr. LIPPS. Congresswoman, I do want to address your 
previous accusations.
    Ms. HAYES. I don't have time. I'm so sorry, but I don't 
have time for you to--
    Mr. LIPPS. I will tell you that I do not like sitting down 
at a table with kids who are hungry and watching them not--
    Ms. HAYES. With all due respect, Deputy Secretary Lipps, I 
don't have time. I only have 5 minutes and I would like this--
these are the questions that I would like an answer to.
    Mr. LIPPS. Well, I just wanted to clarify the point that I 
don't like to watch hungry kids not eat their meals.
    With regard to your question, there is no doubt that when 
tax dollars are infused into a local economy that it helps 
local businesses. The question in these programs is are we 
feeding people, are we helping hungry people eat. And that is 
the measure that we have. There are a lot of ways to infuse 
money in local economies, and you all make those decisions 
every day in your policymaking. My job is to focus on helping 
ensure that hungry people have access to food and if that helps 
benefit a local economy, we are glad to have that as a side 
benefit.
    Ms. HAYES. Thank you.
    Mr. Lipps, do you know how many families will be affected 
by this proposed $1.7 billion cut to the SNAP program?
    Mr. LIPPS. Which cut are you talking about, Congresswoman?
    Ms. HAYES. That was in the President's Fiscal Year 2020 
budget. The cuts to the SNAP program.
    Mr. LIPPS. Are you talking about the ABAWD proposal?
    Ms. HAYES. Cuts to nutrition programs overall.
    Mr. LIPPS. Cuts to nutrition programs in general? There are 
different numbers on different proposals. I am not sure which 
ones specifically you are addressing.
    Ms. HAYES. Do you--all of them.
    Mr. LIPPS. Well, we have some proposals that don't reduce 
program participation at all. If they provide benefits in 
different ways--
    Ms. HAYES. 800,000.
    Mr. LIPPS. That is with--
    Ms. HAYES. 800,000 people will be affected--
    Mr. LIPPS. I think that is a number referring--
    Ms. HAYES [continuing]. by the cuts to these programs.
    Mr. LIPPS [continuing]. just to the ABAWD rule for people 
who do not--
    Ms. HAYES. 800,000.
    Mr. LIPPS [continuing]. participate in an education 
activity.
    Ms. HAYES. In your opening you said great customer service 
starts with listening to customers, to understanding their 
requirements, their challenges, and the choices available to 
address them within the existing program authorities. Can I ask 
you, were any of your--I am moving to a different topic--were 
any of your WIC staff consulted at FNS headquarters when you 
had the decision to realign the regions?
    Mr. LIPPS. Absolutely.
    Ms. HAYES. They were? Because this committee learned that--
in a recent call with the committee staff, staff acknowledged 
that one of the problems this proposal has presented is around 
WIC funding that flows through FNS regions. On the call your 
staff indicated that no action would be taken on the 
realignment before the WIC funding issue had been addressed. 
However, at the time of the call, the USDA had already 
announced the realignment with the impacted States and tribes.
    So is there communication between your staff and the 
policies that are coming out of your administration?
    Mr. LIPPS. Congresswoman, I would be happy to talk to you 
about that at length. The facts that you have are not accurate. 
We are in a phase of meeting with all of our customers at this 
time because customer service is at the top of the list. My 
regional administrator colleagues are currently out meeting 
with all of our operators who run this program. And after the 
two regional administrators who were exchanging meet, their 
staff at lower levels are meetings to ensure that everyone's 
concerns are offered.
    And I want to be clear that this was not a proposal that I 
brought forward, it is a proposal that staff worked out to 
ensure--we have regions with nine State agencies and 39 tribal 
organizations and regions with five State agencies and 20 ITOs. 
They cannot equally serve their constituents in that way. So 
our regional staff brought this proposal to me and said let us 
balance this workload so we can better serve our customers.
    It is a great idea. There are some issues that need to be 
worked out, and we will get them all worked out before we move 
forward. That is how we operate at FNS.
    Ms. HAYES. I look forward to that. Madam Chair, I yield 
back.
    Mr. LIPPS. Thank you.
    Chairwoman BONAMICI. Thank you.
    I now recognize Representative Thompson from Pennsylvania 
for 5 minutes for your questions.
    Mr. THOMPSON. Thank you, Madam Chair.
    Secretary Lipps--
    Mr. LIPPS. Good morning.
    Mr. THOMPSON [continuing]. thank you for your service, 
thank you for your work in this area, thank you for your work 
of doing our best to provide poor hungry families with ultimate 
food security, and ultimate food security comes through a job. 
And there are more than 7 million jobs that are open and 
available throughout this great country today. And we do have a 
skills gap. We know that. We have addressed--we have worked 
hard on this committee to address that skills gap. And, quite 
frankly, within the Supplemental Nutritional Assistance 
Program, I appreciate your work and the work of Secretary 
Perdue to help those folks who are able-bodied with--which is a 
definition that comes with broad exemptions for small kids and 
different things, age ranges, very definitive exclusions, but 
people who are able-bodied to be able to get access to get that 
training that leads to food security.
    The SNAP program--to defend SNAP, I mean it provides--to 
someone who chaired the nutrition committee and the agriculture 
committee for 2 years, we know what that provides is very 
important, but it is very limited. And if you want ultimate 
food security, that really comes through the effort and the 
work that you all are doing.
    I don't appreciate when my colleagues extract certain 
statistics and try to demonize, you know, what is the right 
thing to do to help people and to do things for--we are not 
doing things--you are not doing things to people, but you are 
doing things for people.
    My question though is not on the SNAP program, it is the--I 
want to thank you for the Department's work on last year's 
rulemaking to reinstate the 1 percent flavored milk as an 
option in our schools that certainly will be a helpful move to 
increase milk consumption in our schools. I have seen it 
already as I have visited schools and been able to enjoy a 
school lunch with a table full of kids. I don't know if they 
enjoyed me there as much as I enjoyed being there, and to enjoy 
having 1 percent chocolate milk actually. I know the kids 
appreciate that. And then with the goal of not losing another 
generation of milk drinkers, I am hopeful we will be able to 
move further. The next step is to allow our schools the option 
to serve whole milk. We are talking about the difference 
between 1 percent milk fat and 3.5 percent milk fat. And on all 
the science and the data--and we do have someone--
unfortunately, some associations have not kept up with--I don't 
think with science, but the difference there in the nutritional 
value, the health values, are just significant. We know so much 
more than the bad decision was made in 2010 to demonize milk 
fat. So the next step really is to allow schools the option to 
serve up the option--you know, I hope we are not dictating--to 
serve whole milk, as my legislation H.R. 832 does.
    Would you be in favor of giving schools the flexibility to 
offer these varieties as well?
    Mr. LIPPS. Congressman, first let me thank you for your 
previous comments. I think you know that our intentions are 
good with regard to our SNAP policies, and I appreciate your 
comments on that front.
    With regard to your question on whole milk, we would like 
to engage with you on that front. I understand that most 
Americans are buying whole or 2 percent milk at the grocery 
store. And as I stated earlier, what we do know from our school 
nutrition and meal cost study is that milk consumption has 
decreased 10 percent over those years.
    And when you talk about the nutrients that are provided in 
that milk as part of this meal pattern, if kids aren't drinking 
that, that is a problem, right, there is a problem on both ends 
and we have to recognize that.
    So we want the meal pattern to be based on science and the 
dietary guidelines advisory committee is looking at some of 
these questions now. And we think they are important questions 
that you raise and we would love to engage with you on that.
    Mr. THOMPSON. Have the studies identified what the 
alternative beverages are? I was in a dairy roundtable 
yesterday in my State Capitol in Harrisburg, Pennsylvania, and 
there was a school dietician there and she reported to me--you 
know, she gave me a specific brand, I won't name that, but it 
was a high sugar, high caffeine is her observation of what is 
being consumed by these kids. That is what they are opting to 
do. They haven't had a great milk experience for the most part 
since 2010 when we--when there was legislation--when the last 
time school nutrition standards were passed. It was a bill I 
voted against, by the way. And so I don't know if we are 
finding--identifying what are the alternative beverages that 
are being utilized with--you know, you said at least a 10 
percent decrease in milk consumption. They are drinking 
something.
    Mr. LIPPS. Well, I can assure you, Congressman, that they 
are not purchasing those high sugar, high caffeine beverages in 
schools, per our regulations, but there is no doubt that kids 
are bringing those from home.
    Mr. THOMPSON. Not even out of vending machines?
    Mr. LIPPS. They are buying them outside. No, sir. They are 
not allowed as part of the competitive foods. But, you know, 
the unfortunate situation is that all of these children don't 
have the benefit of having parents with the ability to train 
them at a young age, like Dr. Schrier. And so we have to work 
together to do the best we can for all of America's children.
    Mr. THOMPSON. All right. Thanks, Secretary.
    Chairwoman BONAMICI. Thank you.
    I now recognize Representative Lee from Nevada for 5 
minutes for your questions.
    Ms. LEE. Thank you, Madam Chair, and thank you, Secretary 
Lipps.
    Mr. LIPPS. Good morning.
    Ms. LEE. Before coming to Congress I had the opportunity to 
work with children in Nevada's K-12 system through many 
nonprofit organizations, including many students whose primary 
meal actually came from school.
    I represent Clark County, Nevada, the fifth largest school 
district in the country where almost two out of three children 
qualify for free and reduced lunch. So I certainly appreciate 
how important it is that the calories our children consume pack 
as much nutritional punch as possible.
    And one of my primary concerns is the threshold or amount 
of certain ingredients being served in school breakfast and 
lunches. For instance, added sugars contribute no essential 
nutrients, are often hidden in juices, breads, snacks that 
schools serve to students. Many children rely on these meals as 
their primary source of nutrition and it is our responsibility 
that they are getting the nutrition they need during their most 
vulnerable years to set them up for a healthy and successful 
life.
    Sugar consumption is a major cause of obesity and many 
chronic diseases, such as diabetes. Current research 
demonstrates that childhood obesity has reached epidemic 
proportions in the last 2 decades, the proportion of overweight 
teens has tripled. We have also classified obesity as a 
national epidemic. And schools were identified as one of the 
key settings for public health strategy to address this 
concern.
    So I understand the need for providers to want to feed kids 
the food they prefer, but when we are faced with the national 
epidemic, it is incumbent upon us to set standards that 
actually address that epidemic.
    And in December of 2018, FNS issued a final rule rolling 
back the previously established nutrition standards for school 
meals on whole grains, sodium, and milk. And as part of rolling 
back these standards, FNS is now allowing schools to serve milk 
with unlimited added sugar and calories, which does not align 
with Dietary Guidelines for Americans' recommendation to limit 
added sugars to 10 percent of daily calories.
    Mr. Lipps, as you know, provisions of the rule around whole 
grains and sodium are now the subject of a lawsuit against the 
Department because they are not in compliance with the law's 
requirement that school nutrition standards align with the 
current edition of the Dietary Guidelines for Americans. Why 
did FNS issue a final rule that violates this law?
    Mr. LIPPS. Congresswoman, I can't comment on active 
litigation, but I would be happy to respond to your question.
    First of all, with regard to the comment that you will read 
a lot about us rolling back standards, Congress has provided 
annual changes on this front with regard to sodium, whole 
grains, and dairy in the annual appropriations process for a 
number of years. One of the requests for schools early on was 
for us to provide them stability on the front that Congress had 
been providing and that is what this rule did.
    The School Nutrition and Meal Cost Study showed that a 
quarter of the nutrients provided in school meals are wasted 
every day. When you look at things like milk, that is a problem 
if kids are not having those nutrients.
    So I wouldn't say, as you stated, that we wanted meals kids 
prefer. Certainly we do, we want them to have nutritious meals 
that they will eat to ensure that they are getting that 
nutrition, particularly for kids who may be going home to an 
empty cupboard. I understand some may choose not to eat their 
school lunch because they don't like it and they will go home 
and eat whatever they want. Not all of the kids have that 
option.
    Thirty percent of schools were not meeting the sodium 
target and 83 percent were not meeting the whole grain target. 
Milk consumption is reduced by 10 percent. And this is still 
with a quarter of the nutrients in the program being wasted. So 
these flexibilities that were provided, which Congress had 
provided through annual appropriations act, give stabilities to 
the school on that front with regard to minimal flexibilities 
to help produce meals that their kids will eat.
    Ms. LEE. I understand that. You know, I think obviously 
there is a clear balance.
    Mr. LIPPS. Right. We agree.
    Ms. LEE. I mean reducing, you know. But I believe that as 
regulators that establishing standards that set children up for 
a lifetime of health is incredibly important.
    I would like you to answer this next question with a yes or 
no answer. Is the Department currently considering any other 
proposed regulatory changes to nutrition standards for school 
meals?
    Mr. LIPPS. Congresswoman, we have a regulation with regard 
to school meals in our recently released regulatory agenda. 
What is going to be included in that, we don't know at this 
time. And I can't comment on that until the proposed rule comes 
out.
    Ms. LEE. Okay.
    Well, I just hope that whatever FNS is considering at this 
time will be in compliance with law and evidence-based so it is 
in the best interest of our school children.
    I want to close by stating in 2018 my home State of Nevada, 
approximately 136,000 students participated in school 
breakfast, and 227,000 in the school lunch program. So when we 
think about food insecurity at large and hungry students who 
depend on these critical programs, we need to think about how 
they align with nutrition standards. Just giving kids food that 
they like to eat is--you know, we need to also be thinking--
    Chairwoman BONAMICI. Representative--I am sorry. 
Representative, your time has expired.
    Ms. LEE [continuing]. about setting them up. Thank you.
    Mr. LIPPS. We agree.
    Chairwoman BONAMICI. I now recognize Representative Johnson 
from South Dakota for 5 minutes for your questions.
    Mr. JOHNSON. Thank you, Madam Chair.
    Mr. Lipps, you know, I think an unfortunate trend in this 
country in recent decades is we are just getting further and 
further away from the farm and the ranch. So we have less of an 
understanding, maybe more of a tenuous understanding of how 
food goes from the farm to the table. That is why I have always 
liked the farm to school program. I think it teaches children--
that uses of course locally sources fruits and vegetables and 
other foods to help students understand the local economy, the 
local culture. It won't surprise you that I think South 
Dakota--I know South Dakota is a beef and bison powerhouse and 
I think South Dakota students could benefit from a deeper 
understanding of the value of that beef and bison.
    And so I think my first question is do you agree that this 
farm to school program could better prioritize locally sourced 
beef and bison?
    Mr. LIPPS. Congressman, we do think it is important. Let me 
comment on the farm to school program in general. I have seen 
out on the ground the effect that program has on children with 
regard to making healthy decisions. When kids are connected to 
their food they do make healthy decisions. I think it is one of 
the best programs that is moving kids' nutrition standards 
forward as we look at that.
    Certainly, I agree with your contention on beef in that 
program. We want kids to have local connection to all of their 
food.
    Mr. JOHNSON. Well, I am glad we are on the same page today. 
I am introducing the Farm and Ranch to School bill, which would 
allow for a greater portion of that budget to be used on 
locally sourced beef, bison, and other meats. I think that 
would be really good moving forward.
    What I want to do is shift now though to a conversation 
about SNAP and ABAWDS, and I am going to lay out three things 
that I believe and I want you to listen and see where maybe you 
might disagree with me.
    First off, we should be clear that it is the law of the 
land in my understanding since the 1996 Welfare Act that able-
bodied SNAP recipients should work. That is the law of the 
land. My understanding is that your proposed ABAWD rule doesn't 
change that, but rather attempts to close a loophole to better 
align USDA rules with congressional intent. That is my first 
understanding.
    My second understanding is just that I know I am not lazy. 
I know I grew up as a poor boy in South Dakota, I know my life 
is better because I was held accountable by parents, by 
teachers, by the laws and regulations and rules of a society. 
And I don't think that holding people accountable is 
punishment. I think it is a hallmark of a responsible society. 
That is my second understanding.
    My third understanding flows from the fact that it has been 
alleged today at this hearing that you USDA is working to 
punish people, these able-bodied SNAP recipients, because you 
want able-bodied people to work. And so I would just say this, 
I do not think that holding people accountable is punishment. 
And I do not think that work is punishment. I think that work 
is opportunity. And I think holding people accountable through 
the value of work is one way that we can improve people's lives 
in a fundamentally critical way.
    Those are the three things that I understand to be true, 
Mr. Lipps. In what ways am I in error?
    Mr. LIPPS. Congressman, I agree with you on each of those 
points. I will talk about each of them specifically.
    Congress put the work requirement in the law in 1996--you 
are correct. And it says--if you look at the statute it says 
work requirement across the top. It is not unclear about what 
it is when Congress put it in. This agency is trying to ensure 
that those individuals who are defined in the statute who 
Congress said should be subject to work requirement are 
engaged. The law--our regulations provide that those 
individuals to whom this applies have an opportunity to engage 
in education towards a job through skills training. We are 
working to ensure that happens. The States are obligated to 
know who these people are. I can show you in our regulations 
and in our memorandums how States are to bring these people in, 
assess their needs, their skills, their skill gaps, and help 
them to work on those.
    I visited with a young lady on one of my trips who was 
subject to one of these work requirements. She got a letter in 
the mail and said, you know what, I decided maybe I could 
change my life because I could get some new skills to get a 
job, and now she is employed.
    The things that you are saying are true. I believe that I 
have succeeded in my career to date because my parents set 
expectations for me and I met them. I understand that I didn't 
have all the difficulties that some of the individuals that are 
subject to this work requirement have, and we are working to 
help them have the skills that they need to deal with those 
each and every day.
    Mr. JOHNSON. Well, Mr. Lipps, I want to thank Secretary 
Perdue for the proposed rule, because I think work is 
opportunity and I appreciate USDA's interest in moving your 
rules closer to congressional intent.
    Thank you, Madam Chair, and I yield back.
    Mr. LIPPS. Thank you.
    Chairwoman BONAMICI. Thank you, Representative.
    I now recognize Representative Trone from Maryland for 5 
minutes for your questions.
    Mr. TRONE. Thank you, Madam Chairwoman, thank you, 
Secretary Lipps. I would also like to recognize for shadow day 
here, another youth participant over to my left, Michael 
Moores. Hello. Thank you, Michael.
    Mr. Lipps, I spent 15 years growing up on a farm; I 
understand rural America and my district is very rural. There 
is actually deeper struggles with hunger in rural areas. But 
across the country only one in seven children--one in seven--
that had a free or reduced meal during the school year is 
taking advantage of that during the summer nutrition program. 
So I don't doubt your intentions at all, what I doubt is your 
execution ability to fill that gap, because these kids are 
hungry. School year, summer, they are still hungry. And our job 
is to feed these kids.
    So what are the top two things, quickly, that your agency 
is doing to fix this gap and execute better? One in seven.
    Mr. LIPPS. Congressman, the top two things are continuing 
to ensure that people have the resources necessary to expand 
their Summer Food Service Program and continuing to find new 
and effective ways to expand the summer EBT demonstration 
projects so we can ensure that you have the information you 
need to provide us the resources to feed more children in the 
summer.
    Mr. TRONE. But that has been basically the process for the 
entire time we have had this focus and we are not making any 
progress. So there is an old rule, if you keep doing the same 
thing, you get the same answer. I mean we need to do some 
marketing to communicate and execute better to help these kids. 
They are hungry.
    Mr. LIPPS. Congressman, having grown up in a rural area, I 
agree with your earlier comments on that. The Summer Food 
Service Program through a congregate feeding requirement is not 
going to serve all of those children. The money provided to 
this agency through the annual appropriations process for 
summer EBT is very limited. We have had great success on some 
of those fronts. We are looking at new opportunities to expand 
that to provide you more information, but the reality is that 
we need to work together on opportunities in child nutrition 
reauthorization to give the agency more resources to help 
States and local sponsors feed more children.
    Mr. TRONE. Okay. We have got to move past the good 
intentions.
    September 2018, Department of Homeland Security published a 
proposed rule expanding the definition of public charge. The 
rule makes it possible for folks to be disqualified from 
obtaining a green card or entering the country simply because 
they sought health care or they sought food assistance for 
their family.
    Food and Nutrition Service's stated goal is to end hunger 
following the guidelines. DHS obviously does not share that 
goal. What is your agency doing to push back against rules like 
this from DHS?
    Mr. LIPPS. Congressman, I believe that that rule is still 
open as a proposed and so I am not going to comment on that 
specifically.
    I will say that our agency provides comments on those type 
of rules to inform the process going forward. We have met with 
a number of stakeholders on that front and encouraged them to 
meet with our colleagues over at DHS to talk about that front.
    Another important thing is I think we all need to be clear 
when we talk about what this rule does, that we don't talk 
about what it does not do with regard to its affect on a number 
of our programs who are not touched in the proposed rule. And 
we want to ensure that there is clear information to the 
recipients of our programs, who you have provided in statute, 
can access these programs despite that rule, have access to--
    Mr. TRONE. I think that is nice, but irrelevant. You know, 
what guidance did you provide DHS about this rule in the 
interagency review process that it is clearly not feeding kids 
that need to be fed?
    Mr. LIPPS. Congressman, again, this rule does not affect 
our child nutrition programs. I will say that with regard to 
the rule, we did provide comment, but again that rule is still 
in the open proposed phase.
    Mr. TRONE. It affects their ability to get a green card or 
get food assistance.
    Mr. LIPPS. It does not with regard to child nutrition 
programs, for which the statute provides--
    Mr. TRONE. I just want to reiterate your agency's mission 
is to work to end this hunger--
    Mr. LIPPS. We agree with that.
    Mr. TRONE [continuing]. through your programs. And I don't 
know how you can justify not pushing back against rules from 
other agencies that would choke your ability to pursue the 
agency's mission. The rule is shameful and if you are not 
pushing back that is doubly shameful. It is an abdication of 
your duties. So we need your help. Kids need your help. They 
are hungry and they are not getting fed.
    Thank you.
    Mr. LIPPS. I understand, Congressman, and again, I want to 
say that rule does not affect our child nutrition programs as 
proposed.
    Mr. TRONE. I yield back.
    Chairwoman BONAMICI. Thank you.
    I now recognize the chairman of the full committee, 
Chairman Scott from Virginia, for 5 minutes for your questions.
    Mr. SCOTT. Thank you, Madam Chair.
    First I want to recognize one of the persons following us 
today, Jessica Reese from Mississippi.
    Thank you.
    Mr. Lipps, the chair of the subcommittee asked you about 
the community eligibility, and did I understand that you 
mentioned that there would be savings with the change that you 
are making?
    Mr. LIPPS. Yes, sir.
    Mr. SCOTT. And are those savings generated by fewer 
children having access to free school meals?
    Mr. LIPPS. It is generated by children who do not qualify 
for free and reduced priced meals not getting free meals at 
school.
    Mr. SCOTT. Does it also include those who are eligible that 
can't get through the paperwork for one reason or another?
    Mr. LIPPS. Those children can still qualify to get through 
the normal application process.
    Mr. SCOTT. If they don't--one of the things about this 
community eligibility is everybody is eligible. You don't have 
to fill out the paperwork.
    Mr. LIPPS. Right.
    Mr. SCOTT. Many eligible students do not get access because 
they don't fill out the paperwork for one reason or another.
    In terms of the--I understand the Administration is 
changing the way you calculate the poverty rate.
    Mr. LIPPS. I think there is a proposal out on that front, 
sir.
    Mr. SCOTT. And I understand that since 2000 the chain CPI 
has increased the poverty--would have increased the poverty 
rate by 39.7 percent, but the regular CPI would be 45.7, an 
increase of 6 percentage points. Does that sound about right?
    Mr. LIPPS. I will leave the statisticians to that, 
Congressman.
    Mr. SCOTT. But there is a difference?
    Mr. LIPPS. There is a difference, yes, sir.
    Mr. SCOTT. Okay. The Able-Bodied Adults Without Dependents, 
when they are disqualified does that affect children?
    Mr. LIPPS. No, sir.
    Mr. SCOTT. Say again.
    Mr. LIPPS. It does not affect children. By statutory 
definition it does not apply to an individual that has a child 
in the home.
    Mr. SCOTT. If a non-custodial parent loses food stamps and 
is less able to pay child support, does that affect the 
children?
    Mr. LIPPS. They will continue to qualify for food stamp 
benefits if they did before.
    Mr. SCOTT. The non-custodial parent would be less able to 
pay food stamps.
    In terms of WIC, do you agree with the studies that show 
participation in the WIC program is associated with reduced 
rates of infant mortality and improved nutritional status for 
pregnant women and post-partum women?
    Mr. LIPPS. Yes, sir, we have very positive studies on that 
front in WIC.
    Mr. SCOTT. And maternal mortality is more than double and 
the infant mortality rate is one of the worst amongst 
international nations, is that right?
    Mr. LIPPS. Yes, sir, I have heard that statistic.
    Mr. SCOTT. And so what does WIC do to improve that 
situation?
    Mr. LIPPS. I think the studies show that being a part of 
WIC itself helps with those situations. WIC doesn't 
specifically provide services on that front, but we certainly 
provide a round of service through the WIC program to ensure 
that people have access to everything, that pregnant women, 
mothers, and children have access to all the services that they 
made need through referrals.
    Mr. SCOTT. Now, what does WIC provide other than food?
    Mr. LIPPS. WIC provides a number of services through 
breastfeeding peer counseling, they provide referrals for 
support, there is some testing that is done. We want to make 
sure that mothers and children have everything they need to 
exceed nutritionally in life at that point.
    Mr. SCOTT. And you have studies that show that makes a 
difference?
    Mr. LIPPS. Yes, sir, we do.
    Mr. SCOTT. In September 2018 the Department of Homeland 
Security published a rule expanding the definition of public 
charge. It makes it possible for people to be disqualified for 
many services. Your stated goal for the Food and Nutrition 
Service is to work to end hunger through administration of 
Federal nutrition assistance programs for vulnerable 
populations. The Homeland Security's own analysis of their rule 
said that the rule, if implemented, could lead to worse health 
outcomes, including increased prevalence of obesity, 
malnutrition, especially for pregnant or breastfeeding women, 
infants, or children, increased used of emergency rooms, 
increases in uncompensated care, and reduced productivity, and 
educational attainment.
    Do you agree with that assessment? And what did your agency 
respond when asked to comment on this proposed rule?
    Mr. LIPPS. Chairman, as I stated to your colleague earlier, 
that rule is still being assessed in proposed form, so I won't 
comment on that specifically.
    But we did provide comments on the affect on our programs 
of that proposed rule.
    Mr. SCOTT. Do you have evidence to show that your changes 
in sodium in the school lunch program is evidence-based?
    Mr. LIPPS. Yes, sir. The School Nutrition and Meal Cost 
Study shows that 30 percent of the schools weren't meeting that 
sodium standard, 83 percent weren't meeting the whole grains 
standard, and even with that, one quarter of the nutrients 
provided to that program were being wasted for failure of kids 
to consume.
    Mr. SCOTT. Is that because the food was not tasty or 
because of the standards? We have had evidence in other 
hearings that if you provide tasty food, it is not wasted. If 
you provide un-tasty food, it will be wasted.
    Mr. LIPPS. We agree with that. And the school nutrition 
professionals tell us that these flexibilities will help them 
to provide food that won't be wasted.
    Mr. SCOTT. Thank you, Madam Chair.
    Chairwoman BONAMICI. Thank you. I now recognize 
Representative Sablan from the Northern Mariana Islands for 5 
minutes for your questions.
    Mr. SABLAN. Thank you very much, Madam Chair, for holding 
today's hearing and for allowing me to sit on the dais. Good 
morning--
    Mr. LIPPS. Good morning.
    Mr. SABLAN [continuing]. and welcome, Secretary Lipps.
    I don't have--5 minutes--I have a lot of questions, but let 
me ask some and ask for you to respond.
    I want to know about the continued omission of the Northern 
Marianas from the Department's research on school meals, meal 
cost. We face unique challenges in implementing child nutrition 
programs as our providers face very high food costs. As the 
Northern Marianas are not included in research, like the School 
Nutrition and Meal Cost Study, how does the Department ensure 
that we are receiving fair and sufficient Federal 
reimbursements to operate the programs?
    Mr. LIPPS. Congressman Sablan, I believe that CNMI is on a 
block grant with regard to school nutrition programs, which 
makes that operation a little bit different. I would be happy 
to engage with you on any questions that you have on that front 
to help better the operation of that program.
    Mr. SABLAN. Right. But if you don't have the research, the 
data to show, then I don't know how you come to arrive at how 
much that block grant will be. So--
    Mr. LIPPS. I believe Congress provides that formula to us, 
but again, we would be happy to discuss that with you further.
    Mr. SABLAN. Oh, Okay. I want to ask about the school meal 
reimbursement rates for the noncontiguous pacific areas. I will 
ask Hawaii, American Samoa, Guam, and the Northern Marianas, 
what is the basis used to establish those rates? Does the 
Department think that the historical basis remains valid today? 
And how frequently are the rates recomputed to keep up with 
changing prices and market conditions?
    Mr. LIPPS. Congressman, I apologize, I don't know off hand 
how often we recalculate those and what studies they are based 
off of, but we will be happy to get that back to you quickly.
    Mr. SABLAN. I appreciate that.
    And I want to know the status of an information request 
regarding whether data collected in the upcoming School 
Nutrition and Meal Cost Study part II will be used to determine 
reimbursement rates for all outlying areas, including the 
Northern Marianas, even though it will not be one of the data 
collections sites.
    On April 18 the committee staff asked your office for this 
information but have not yet received an answer. Are you able 
to answer that question for me today?
    Mr. LIPPS. I do not have an answer to that. If you have not 
received an answer from our office yet you will have that 
tomorrow.
    Mr. SABLAN. Tomorrow?
    Mr. LIPPS. Tomorrow.
    Mr. SABLAN. I appreciate--
    Mr. LIPPS. We will get you an answer tomorrow. I am not 
aware that we received that, but you should have received an 
answer by now and we will assure that you will get one soon.
    Mr. SABLAN. Thank you. I appreciate that.
    In my remaining time, you know, I was able--it was a 
teacher actually who made me understand the connection between 
student school lunch and food at home under SNAP. So I want to 
ask the administration's plan for the Nutrition Assistance 
Program in the Mariana Islands. We are not involved in SNAP as 
you know. We get a $12 million block grant that has not changed 
since 2009. I did put an extra $30 million into the 2014 farm 
bill for the Marianas program. That money raised benefits to be 
comparable to Guam, which has similar food costs. We have also 
included more households using income eligibilities that are 
closer to SNAP. But this progress can slip away.
    In fact, the Marianas program is planning to start cutting 
benefits and taking families out of the system beginning 
October 1. Now, I just did get another $25 million in this 
disaster supplemental yesterday, and we are hoping to get some 
update from the Marianas and from your western regional office 
about how the current economic downturn will change demands on 
the system.
    But what I want to know is whether the administration 
thinks we should continue this way with a system that always 
needs special attention, a kind of Rube Goldberg contraption. 
Would it not be smarter and more administratively efficient to 
just put the Marianas into SNAP?
    Mr. LIPPS. Congressman, we would be happy to continue to 
engage with you on that matter. I know that FNS has--over time 
there are a lot of requirements that come with being SNAP 
operators--
    Mr. SABLAN. We have met those requirements, Mr. Secretary. 
We are done with eligibility system requirement. EBT is coming 
on line. The Governor has said it can meet half the 
administrative cost of--you have the statutory authority to do 
it, you do not have to wait for Congress, so why not just 
incorporate the Northern Marianas into SNAP? Would that not be 
easier all around?
    Mr. LIPPS. Congressman, I don't know if it would be easier. 
I am not sure that you or I would agree that is the right 
question. But I do think both of us can continue to work 
together to make sure that we are serving the people of CNMI in 
the best way that we can.
    Mr. SABLAN. Mr. Secretary, I have been trying to get there 
since 2009. What is it now, 2019?
    Mr. LIPPS. 2019.
    Mr. SABLAN. Yes, 10 years. So on working together, can we 
work a little faster maybe please?
    Mr. LIPPS. I would be happy to meet with you as often as 
you would prefer, sir.
    Mr. SABLAN. Thank you, Mr. Secretary.
    And, Madam Chair, I yield my time back.
    Chairwoman BONAMICI. Thank you.
    I now recognize Representative Grothman from Wisconsin for 
5 minutes for your questions.
    Mr. GROTHMAN. Thanks. A couple of questions. And, first of 
all, maybe we have already gone over some of these. I was in 
another hearing.
    The percentage of students who are getting free or reduced 
lunch, say in the most recent year available compared to say 10 
years ago, do you have information on that?
    Mr. LIPPS. I know that number. I do have that number handy, 
if you can hold. The percent getting free and reduced in 2011 
was 66 percent and now that is 74 percent as of 2018.
    Mr. GROTHMAN. Seventy-four percent of what?
    Mr. LIPPS. Of the students participating in school lunch 
program are free and reduced meals.
    Mr. GROTHMAN. Okay. Maybe that is misleading. Is that the 
same thing as total students or? Could you distinguish that 
between--I can't believe that 74 percent of the American 
students are eligible for free--
    Mr. LIPPS. Sorry. The percent of--so the school lunch 
program has participation from those that receive free meals, 
from those that receive reduced price meals, and from those who 
have paid meals.
    Mr. GROTHMAN. Okay.
    Mr. LIPPS. The percent that are getting free and reduced 
out of all of those is 74 percent. But that is out of all 
participants. If you are asking the number of students that 
participate in the program, I don't know what percentage that 
is out of all American school children.
    Mr. GROTHMAN. Okay. It kind of makes that number not 
particularly relevant then. Do you know just raw numbers the 
number of kids participating 10 years ago compared to today?
    Mr. LIPPS. I don't have the numbers, sir. Actually, I do. 
We had 31 million--almost 32 million participating in 2011 and 
we are now down to around 30 million in 2018.
    Mr. GROTHMAN. So even though the percentage--to what do you 
attribute that--so the percentage of people in any school lunch 
program getting free and reduced is going up, but the overall 
number is dropping. I mean that seems counterintuitive. How do 
you--
    Mr. LIPPS. We believe the major increase in the free and 
reduced price categories is through the community eligibility 
provision that there has been a lot of discussion about this 
morning. The reduction in those who are paying for their meals 
either in full or partial is our school nutrition professionals 
tell us is their ability to provide meals that are both 
nutritious and kids will eat, after the Healthy Hunger-Free 
Kids Act has reduced and those kids have chosen to bring their 
meal or to eat off campus.
    Mr. GROTHMAN. Well, this would indicate, right, that more 
people are eating than bringing their own food--right?
    Mr. LIPPS. Yes, sir.
    Mr. GROTHMAN. Over time. So to what do you attribute that?
    Mr. LIPPS. Many of the school nutrition professionals tell 
us that without these flexibilities that the Secretary provided 
in his recent rule, that they weren't able to provide lunches 
that were both nutritious and the kids would enjoy eating.
    Mr. GROTHMAN. So during the last 10 years, for whatever 
reason, schools were being forced by the Federal Government to 
provide meals that nobody would want--or at least many people 
would not want to eat?
    Mr. LIPPS. Yes, sir. Many of the schools have struggled 
with that.
    Mr. GROTHMAN. Okay. Could you give us just a general 
percentage of school kids who are obese today compared to 30 or 
40 years ago?
    Mr. LIPPS. I don't have a particular number on that with 
regard to school kids, Congressman, but certainly the numbers 
show that obesity has increased significantly in recent years.
    Mr. GROTHMAN. Okay. And kind of in line with the first 
thing we said, you hear anecdotally when you talk to students 
that a lot of people throw away this food. Is there any hard 
evidence on that or you just have anecdotal evidence?
    Mr. LIPPS. Yes, sir. The School Nutrition and Meal Cost 
Study shows that a quarter of the nutrients provided to kids 
and elementary kids in school meals is wasted every day. We see 
that as a problem, particularly with kids who have to go home 
to empty cupboards. We want to make sure that the local school 
nutrition professionals serving them have the minimal 
flexibility necessary to ensure they want to eat the food that 
is served to them and that it is also nutritious.
    Mr. GROTHMAN. What percentage of food is being thrown away?
    Mr. LIPPS. A quarter of the nutrients provided to 
elementary students is wasted every day.
    Mr. GROTHMAN. Do you believe that? I will believe that 25 
percent is thrown away. I question that people are throwing 
away 25 percent of their food and that aren't being given any 
food to eat at home. Is that believable?
    Mr. LIPPS. Say that again. I think that the type of food 
that some of these children are eating at home may not be 
nutritious. And I do think some of them are going home to empty 
cupboards.
    I have sat with kids and watched them trade food with kids 
who bring their lunch, but not choose to eat the type of things 
that are served to them at lunch.
    Mr. GROTHMAN. Okay. Well, it is something that we wanted to 
do several years ago on this committee. So you are trying to 
take steps to improve this program, which is kind of--they are 
throwing away 25 percent of their food, would have to have been 
described as a failure until a new administration. Is that 
accurate?
    Mr. LIPPS. The nutrition standards in school meals have 
made great progress in ensuring that kids are eating more 
nutritious foods and the program has done great work in that 
way. The school nutrition professionals tell us on the ground 
that there are some minimal flexibilities that they need to 
ensure that they can serve kids the foods that they need, and 
we are working to make sure that happens every day.
    Mr. GROTHMAN. Well, thank you. The more flexibility, the 
better.
    Mr. LIPPS. Yes, sir.
    Chairwoman BONAMICI. Thank you.
    Before I recognize Representative Wild, I want to ask 
unanimous consent to enter into the record the USDA's School 
Nutrition and Meal Cost Study, published in April of 2019. The 
study looked at all aspects of school nutrition programs before 
and after implementation of the updated nutrition standards 
under the Healthy Hunger-Free Kids Act and comparing data from 
school year 2009-10 before implementation of the new standards 
to school year 2014-15. The study found that overall 
nutritional quality of school meals increased by over 40 
percent while plate waste did not increase. Healthier food was 
not associated with increased cost and students and parents 
were satisfied with the meals.
    I want to congratulate our school nutrition professionals 
who helped make that happen, but also note that the report 
found that there were higher rates of participation in schools 
with lunches of higher nutritional value.
    Without objection.
    And I recognize Representative Wild from Pennsylvania for 5 
minutes for your questions.
    Ms. WILD. Thank you, Madam Chair.
    Good morning, Mr. Lipps.
    Mr. LIPPS. Good morning.
    Ms. WILD. In the audience today is a 20-year-old young lady 
named Lindy who is a product of the foster care system. And in 
the brief time I have spent with her today I have learned of 
the many struggles she has endured in her short life. And the 
last thing she or any foster child needs is to worry about 
whether they will get lunch at school.
    In 2013, the USDA issued a policy memo clarifying its 
interpretation of the statutory provision in the Healthy 
Hunger-Free Kids Act that provided categorical eligibility for 
free school meals to foster children. The policy memo reversed 
the Department's previous interpretation of the statute and 
narrowed it to include only those foster children who are 
currently the responsibility of the State. Recently, as the 
number of foster children and children in kinship care has 
grown--and kinship care, of course, is children who are in the 
placement of a relative--there has been a growing number of 
children who have been placed with a friend or relative and 
therefore not deemed to be the responsibility of the State. As 
a result they are not considered to be categorically eligible 
for free school meals under the Department's interpretation of 
the law.
    So my question to you is do you believe that the USDA 
should extend categorical eligibility to this group of children 
once again?
    Mr. LIPPS. Congresswoman, it is an important issue. That 
decision obviously took place before my arrival at the agency 
and I only recently became aware of it.
    Ms. WILD. Understood.
    Mr. LIPPS. We have some more research to do on that point 
and we will get back to you. It is certainly an important issue 
that we want to engage with you on, ensuring that those 
children that you are referring to have access to nutritious 
meals.
    Ms. WILD. Then you are probably aware that in the letter to 
Chairman Scott on April 2 of this year regarding this issue, 
Secretary Perdue wrote, and I quote, ``The agency is currently 
examining the applicability of guardianship arrangements to the 
existing authority.'' Are you familiar with that letter?
    Mr. LIPPS. Yes, ma'am.
    Ms. WILD. Can you provide us with an update on that review 
or that examination, including a timeline of when you expect it 
to be completed?
    Mr. LIPPS. I don't have an update at this time, 
Congresswoman, but we will keep you advised as well and 
continue to engage with you on that.
    Ms. WILD. Can we get some kind of more specific timeline 
that you expect that this very important issue for children who 
may be hungry at school, notwithstanding the fact that they are 
under the care of a relative, when this issue might be 
addressed?
    Mr. LIPPS. We will contact you this afternoon with a date 
on which we will get you more information.
    Ms. WILD. All right. My office is at 1607 Longworth. We 
will look forward to hearing from you. And my legislative 
director is directly behind you. Dorcas, could you raise your 
hand? She would be happy to take that information from you.
    If the USDA's examination shows that you do not have the 
statutory authority to extend categorical eligibility to 
children who have been placed in these guardianship 
arrangements, then Congress will need to pass legislation to 
provide the statutory authority that the USDA needs to do so.
    I hope at that point that you will work to promulgate the 
congressional intent.
    Thank you.
    Mr. LIPPS. We are always happy to do so.
    Ms. WILD. Thank you.
    Chairwoman BONAMICI. Thank you very much.
    I remind my colleagues that pursuant to committee practice, 
materials for submission for the hearing record must be 
submitted to the committee clerk within 14 days following the 
last day of the hearing, preferably in Microsoft Word format. 
The materials submitted must address the subject matter of the 
hearing. Only a member of the committee or an invited witness 
may submit materials for inclusion in the hearing record.
    Documents are limited to 50 pages each. Documents longer 
than 50 pages will be incorporated into the record via an 
internet link that you must provide to the committee clerk 
within the required timeframe. Please recognize that years from 
now that link may no longer work.
    Again I want to thank the witness for his participation 
today. What we have heard is very valuable. Members of the 
committee may have additional questions for you and we ask the 
witness to please respond to those questions in writing. The 
hearing record will be held open for 14 days to receive those 
responses.
    And I remind my colleagues that pursuant to committee 
practice, witness questions for the hearing record must be 
submitted to the majority committee staff or committee clerk 
within 7 days. The questions submitted must address the subject 
matter of the hearing.
    And I now recognize the distinguished ranking member for 
his closing statement.
    Mr. COMER. Thank you, Madam Chair. And I want to thank you 
again, Mr. Under Secretary, for being here today. I think it is 
important to hear how the Administration is implementing these 
programs. And I appreciate the chairwoman for calling this 
hearing.
    We discussed a lot of important topics today, one was the 
need to maintain the flexibility just made permanent by the 
USDA. If we want kids to benefit from the child nutrition 
programs, the meals have to be something they will eat. I 
believe the new rule will allow schools to plan ahead and serve 
meals that kids will want to eat. Students will also have 
access to milk they will want to drink, something that is 
critical for their growth and development.
    It is alarming to read a report that says almost 30 percent 
of the milk served was discarded. And I am glad to see that 
Secretary Perdue is trying to help remedy that. I am sure there 
is more we can do, but this is a good step.
    We also discussed the need to continue working on program 
integrity. I believe USDA is doing some good work here, but it 
is important to continue those efforts and work to maximize 
every taxpayer dollar allocated for these programs to be used 
to actually serve children.
    I hope the majority is interested in moving a bipartisan 
child nutrition bill, one that will help improve how these 
programs work to reach children and one that is fiscally 
responsible. Those two things are not mutually exclusive and I 
believe if we both come to the table recognizing the need for 
these principles to be achieved, we could send the Senate a 
great bill, one that helps address the hunger needs in 
America's youth, one that helps programs like the summer 
program reach more kids, and one that helps schools reach more 
students by serving food that doesn't cost more than they take 
in and provides food kids will actually eat.
    I look forward to the discussions of this issue with the 
chairwoman and Chairman Scott.
    I also feel it is necessary to correct some information for 
the record on the SNAP rule we discussed today. This is issue 
is actually in the agriculture committee's jurisdiction, of 
which I am a member. I can tell you the proposed Able-Bodied 
Adult Without Dependents rule amends the regulatory standards 
by which USDA evaluates State staff agency requests to weight 
the time limit and to end unlimited carryover of percentage 
exemptions.
    The proposed rule would encourage broader application of 
the statutory work requirement consistent with both the 
bipartisan welfare reforms of 1996 and the Administration's 
focus on fostering self sufficiency. Simply put, this proposal 
does not eliminate waivers, rather, expects States to provide 
legitimate support for such requests. Despite a booming 
economy, millions of able-bodied adults are excluded from the 
labor market because of State gimmicks. We also exclude these 
adults from education and volunteer opportunities because 
States find it easier to ignore this population than invest in 
them. More than 1,200 jurisdictions across the country have no 
expectation of employment for SNAP recipients. And this rule 
takes necessary to move individuals from welfare to work.
    Further, any adult with a dependent in the household is 
exempt. It does not matter if the dependent is placed there 
officially or unofficially. If the adult in question reports a 
dependent in the household, the rule does not apply. In fact, 
the Food and Nutrition Act exempts any adult with a dependent 
in the household, and this rule does not change a thing related 
to that.
    Mr. Lipps, thank you again for coming today. I appreciate 
the opportunity to discuss these important issues with you.
    And I yield back.
    Chairwoman BONAMICI. Thank you.
    I now recognize myself.
    Mrs. FOXX. Madam Chairwoman? Madam Chairwoman?
    Chairwoman BONAMICI. Yes, I recognize--
    Mrs. FOXX. I would like to submit for the record an article 
from the Washington Times related to the blessings of work and 
correcting any attitude that work is a punishment.
    Chairwoman BONAMICI. Without objection.
    Mrs. FOXX. Thank you.
    Chairwoman BONAMICI. I now recognize myself for the purpose 
of making my closing statement.
    I want to start by welcoming again the foster youth who are 
here with us today. I am sure they benefited from listening to 
our conversation. I also want to thank Representative Johnson 
for bringing up the farm to school program, which I know has 
support on both sides of the aisle. When I just had lunch with 
students in Oregon they were happily eating roasted broccoli 
and asparagus from a local farm, only instead of asking for 
bison they were asking for sushi.
    So, Mr. Lipps, thank you again for being with us to examine 
the policies and priorities of the USDA's Food and Nutrition 
Service.
    As we discussed today, evidence-based nutrition assistance 
programs run by the FNS have long served as our country's most 
effective programs for making sure that every child has access 
to the healthy food needed to grow and succeed.
    And, importantly, this hearing has illuminated several ways 
in which FNS under this administration is not meeting its 
commitment to hungry children across the country. Rolling back 
nutrition standards and undermining programs that help needy 
families to put food on the table are contrary to the FNS 
mission to increase food security and reduce hunger.
    For the Federal Government to fulfill its responsibility to 
set the future of our country on a path to success, FNS must 
recommit to providing basic nutrition assistance to those who 
need it most. And Congress must do its part to restore 
bipartisan support for vital nutrition programs that tens of 
millions of children across the country rely on every single 
day.
    Mr. Lipps, I do look forward to continuing our work 
together, along with my colleagues here on the subcommittee and 
the committee to strengthen child nutrition programs and 
protect the progress we have made toward providing children 
with nutritious foods that both fuel their health and their 
development. The future of our country depends on it.
    I want to again thank everyone for taking time to join us 
today.
    There being no further business, this subcommittee stands 
adjourned.
    [Additional submission by Chairwoman Bonamici follow:]
    School Nutrition and Meal Costs Study Summary of Findings: 
https://fns-prod.azureedge.net/sites/default/files/resource-
files/SNMCS--Summary-Findings.pdf
    [Additional submissions by Mrs. Foxx follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    [Whereupon, at 11:55 a.m., the subcommittees were 
adjourned.]

                                 [all]
</pre></body></html>
